No. 19-953
In the Supreme Court of the United States

CHARLES FARRAR,

Petitioner,

V.

COLORADO,

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the 10th Circuit

CERTIFICATE OF SERVICE

I, L. Andrew Cooper, a member of the Bar of the United States Supreme Court,
certify that on February 26, 2020, as required by Supreme Court Rule 29.3, I caused
the foregoing Motion under Supreme Court Rule 30.4 to Extend Time to File
Brief in Opposition to be electronically filed with the Clerk of the U.S. Supreme
Court, as well as causing the original and ten copies of the Motion to be delivered to
the Clerk via the U.S. mail in a properly addressed, first class postage pre-paid
envelope; and also to be served on counsel for the Petitioner, electronically and by
depositing a copy of same into the U.S. mail, first class postage pre-paid in a properly
addressed envelope, addressed as follows:
Catherine Emily Stetson
Hogan Lovells US LLP
555 13th Street, N.W.
Washington, DC 20004-1109
cate.stetson@hoganlovells.corn
Counsel of Record

FOR THE ATTORNEY GENERAL

/s /
L. ANDREW COOPER
Deputy Attorney General
Colorado Dept. of Law
1300 Broadway, lOth Floor
Denver, CO 80203
(720) 508-6465
Email: andrew.cooper@coag.gov
Counsel of Record for Respondent

